 DEPARTMENT        OF HOMELAND SECURITY
 Contents/Abbreviations

      Office of Inspector General



      Improvements Needed in the U. S. 

        Coast Guard’s Acquisition and 

         Implementation of Deepwater 

       Information Technology Systems





      Office of Information Technology
OIG-06-55                        August 2006
          Improvements Needed in the U.S. Coast Guard’s Acquisition and
           Implementation of Deepwater Information Technology Systems
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528



                                                                     Homeland
                                                                     Security
                                           August 11, 2006


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, effectiveness, and efficiency within the department.

This report assesses the development and implementation of information technology (IT) systems to
support the U.S. Coast Guard’s Integrated Deepwater System program. It is based on interviews
with employees and officials at Coast Guard headquarters and the Maritime Domain Awareness
Center as well as other relevant agency facilities, vessels, and contractor organizations and a review
of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Contents/Abbreviations 


  Executive Summary ....................................................................................................................... 1 


  Background .................................................................................................................................... 2 


  Results of Audit .............................................................................................................................. 6 


          System Development Approach Could Be Improved........................................................... 6 

          Recommendations................................................................................................................ 14 


          Deepwater Systems Implementation Challenges................................................................. 15 

          Recommendations............................................................................................................... 32 


  Management Comments and OIG Evaluation ............................................................................. 32 


Appendices
  Appendix A:                Scope and Methodology ................................................................................ 37 

  Appendix B:                Management Response to Draft Report...........................................................39 

  Appendix C:                Major Contributors to this Report.................................................................. 44 

  Appendix D:                Report Distribution ..........................................................................................45 


Abbreviations
  C4ISR       Command, Control, Communications, Computers, Intelligence,
              Surveillance, and Reconnaissance
  COMOPTEVFOR Commander, Operational Test and Evaluation Force
  DHS         Department of Homeland Security
  DITSCAP     Department of Defense Information Assurance and Defense Information
              Technology Security Certification and Accreditation Process 

  GAO         Government Accountability Office      

  ICGS        Integrated Coast Guard Systems     

  IT          Information Technology      

  LIMS        Logistics Information Management System

  OIG         Office of Inspector General    

  SIPRNET     Secret Internet Protocol Router Network 

  USCG        United States Coast Guard 

  USCGC       United States Coast Guard Cutter 


Figures
  Figure 1                    Ships and Aircraft Included in the Deepwater Program ...................................3 


  Figure 2                    Proposed Seamless Interoperability Among Deepwater Assets .......................4 



                                Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                                 Implementation of Deepwater Information Technology Systems

Contents/Abbreviations 



 Figure 3   Requirements Definition Process......................................................................8 


 Figure 4   Deepwater Contractor Relationships ..............................................................16 


 Figure 5   USCGC MATAGORDA, 123-Foot Patrol Boat ............................................26 


 Figure 6   USCG Short Range Prosecutor.......................................................................30 





             Improvements Needed in the U.S. Coast Guard’s Acquisition and 

              Implementation of Deepwater Information Technology Systems

OIG                                                                                 

Department of Homeland Security
Office of Inspector General
Executive Summary
                Declining readiness of “Deepwater” assets, including aircraft and cutters of
                various sizes, has hindered the Coast Guard’s effectiveness in accomplishing
                its homeland security, law enforcement, and regulatory missions. To meet the
                demand for improved communications, interoperability, and maritime security
                in today’s environment, the Coast Guard has embarked on an estimated 20
                year, $20 billion acquisition to modernize and strengthen its aging Deepwater
                fleet.

                We audited the Coast Guard’s efforts to design and implement command,
                control, communications, computers, intelligence, surveillance, and
                reconnaissance (C4ISR) systems to support the Integrated Deepwater System
                program. As a result of our audit, we determined that the Coast Guard’s
                efforts to develop its Deepwater C4ISR systems could be improved. Although
                Coast Guard officials are involved in high-level Deepwater IT requirements
                definition processes, they have limited influence over contractor decisions
                toward meeting these requirements. A lack of discipline in requirements
                change management processes provides little assurance that the requirements
                remain up-to-date or effective in meeting program goals. Certification and
                accreditation of Deepwater C4ISR equipment has been difficult to achieve,
                placing systems security and operations at risk. Further, although the
                Deepwater program has established IT testing procedures, the contractor has
                not followed them consistently to ensure that C4ISR systems and the assets on
                which they are installed perform effectively.

                Additionally, the Coast Guard faces several challenges to implementing
                effectively its Deepwater C4ISR systems. Due to limited oversight as well as
                unclear contract requirements, the agency cannot ensure that the contractor is
                making the best decisions toward accomplishing Deepwater IT goals.
                Insufficient C4ISR funding has restricted accomplishing the “system-of
                systems” objectives that are considered fundamental to Deepwater asset
                interoperability. Inadequate training and guidance hinder users from realizing
                the full potential of the C4ISR upgrades. Instituting effective mechanisms for
                maintaining C4ISR equipment have been equally challenging.




                  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                   Implementation of Deepwater Information Technology Systems


                                             Page 1 

Background
                          According to the Homeland Security Act of 2002, the U.S. Coast Guard’s
                          eleven missions cover both homeland and non-homeland security matters.1
                          Homeland security missions include ensuring security of ports, waterways,
                          and coasts; defense readiness; drug and migrant interdiction; and other law
                          enforcement duties. Non-homeland security missions include maintaining
                          marine safety; coordinating search and rescue; providing aids to navigation;
                          promoting marine resources and protection; and, overseeing ice removal
                          operations.

                          To accomplish its deepwater missions, the Coast Guard maintains a variety of
                          assets, including 186 aircraft and 88 cutters of various sizes, capable of
                          sustaining operations 50 miles offshore in severe maritime conditions. These
                          assets must be available long-term, 24 hours a day, everyday, and everywhere
                          that the Coast Guard’s humanitarian, law-enforcement, national security,
                          maritime safety, or military presence is needed. Typically, however, the
                          assets have been unavailable and lacked the capabilities necessary to perform
                          traditional and homeland security missions effectively. The assets are
                          experiencing declining readiness due to worn out equipment; their lack of
                          essential speed, interoperability, and sensor and communications capabilities
                          severely limits overall mission effectiveness and efficiency.

                          In the mid-1990s, the Coast Guard began planning a recapitalization program
                          to replace or modernize these aging and technologically obsolete deepwater-
                          capable assets. The primary objectives of the recapitalization program were to
                          maximize operational effectiveness and minimize total ownership costs while
                          satisfying the needs of Coast Guard customers. Customers included the
                          operational commanders, aircraft pilots, cutter crews, maintenance personnel,
                          and others who use the assets.

                          This earlier recapitalization effort formed the basis for the Coast Guard’s
                          Integrated Deepwater Systems program. Established in 2002, the
                          “Deepwater” acquisition program is estimated to take between 20 and 25
                          years and cost $19 to $24 billion to complete. The Coast Guard awarded the
                          Deepwater contract to a prime contractor, Integrated Coast Guard Systems
                          (ICGS), a joint venture between Lockheed Martin and Northrop Grumman
                          Ship Systems. The prime contractor identified the assets in need of
                          modernization and is using tiers of subcontractors to design and build new
                          assets. (See Figure 1.) The Deepwater program is not only replacing old
                          ships and aircraft, but is offering an integrated approach to upgrading other

1
    Public Law 107-296, November 25, 2002.

                             Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                              Implementation of Deepwater Information Technology Systems


                                                        Page 2 

existing assets with improved C4ISR equipment and innovative logistics
support systems, too.




Figure 1: Ships and Aircraft Included in the Deepwater Program

The Deepwater program consists of five domains:

    • Surface—consists of updating legacy assets and building new classes of
      cutters, such as the National Security Cutter, the Offshore Patrol Cutter,
      and the Fast Response Cutter. These newer, more seaworthy cutters will
      include reconfigurable spaces that can be tailored for specific missions.
    • Air—consists of modernizing aircraft and building a comprehensive,
      long-term aviation force, including maritime patrol aircraft, unmanned
      aerial vehicles, and high-altitude endurance unmanned aerial vehicles.
    • C4ISR—consists of modernizing the Coast Guard’s command, control,
      communications, computers, intelligence, surveillance, and
      reconnaissance systems to promote seamless communications between
      assets.
    • Logistics—comprised of the Integrated Logistics Support System,
      which is a requirements-driven, performance-based approach to
      integrating the support processes and capability needed to improve
      operational effectiveness and reduce total ownership costs in each of the
      preceding three domains.
    • System-of-Systems—serves as an umbrella domain, encompassing the
      other four domains to ensure that all assets can interoperate. As the
      focal part of the Deepwater program, this domain was created to provide
      central management of program performance, cost, schedule, and risk.




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 3 

The Deepwater C4ISR platform is a fundamental building block to improving
maritime domain awareness by focusing on the information needs of operators
and decision makers. The C4ISR program manager oversees all facets of
C4ISR implementation including resource management, strategic planning,
and organizational performance measurement activities and processes. The
C4ISR platform is designed to ensure seamless interoperability among all
Coast Guard units and DHS components as well as with other federal
agencies, especially the Navy. Modernization efforts to date demonstrate that
legacy assets upgraded with new C4ISR systems enable earlier awareness,
coordination, and response to possible threats by gathering and fusing
terrorist-related information and analysis and increasing communications.

When Deepwater is fully implemented, the Coast Guard’s assets will no
longer operate as independent platforms with only limited awareness of their
surroundings in the maritime domain. Instead, the assets will have improved
capabilities to receive information from a wide array of mission-capable
platforms and sensors. They will share a common operating picture as part of
a network-centric force, operating in tandem with other cutters, boats, manned
aircraft, and unmanned aerial vehicles. (See Figure 2.)




Figure 2: Proposed Seamless Interoperability Among Deepwater Assets


The C4ISR implementation plan outlines a strategy for upgrading shore, air,
and surface assets in the following phases.

  • Increment one, implemented from 2002 to 2005, included satellite voice
    and data communication capability, Coast Guard command and control
    systems, and law enforcement radios added to surface and shore assets.
    Coast Guard command and control systems include the following

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 4 

                            functions: sensor and systems interfaces; operator support and display;
                            mission support; track management; and command and control support
                            services.

                          • Increment two, to be implemented from 2004 to 2007, includes adding
                            C4ISR equipment, radios, and radar to multi-mission cutter helicopters,
                            unveiling the first maritime patrol aircraft, and adding Coast Guard
                            command and control systems upgrades to international ice patrol shore
                            assets.

                          • Increment three, beginning in 2007, includes implementing additional
                            Coast Guard command and control systems as well as planning a hardware
                            technology refresh.

                          • Increment four, scheduled for 2009 to 2012, includes strategic and
                            operational planning for Coast Guard command and control systems, high
                            frequency surface wave radar integration, mission support, and data query.

                        In recent years, the Government Accountability Office (GAO) has evaluated
                        Deepwater program efforts, citing management oversight problems in each of
                        its reports. In March 2004, GAO reported that the integrated product teams
                        charged with overseeing the system integrator had struggled to effectively
                        collaborate and accomplish their missions.2 Specifically, GAO reported that
                        the Coast Guard had not yet begun to measure the system integrator’s
                        performance on the three overarching goals of the Deepwater program:
                        operational effectiveness, total ownership cost, and customer satisfaction.
                        GAO recommended that the Coast Guard take the necessary steps to make the
                        Deepwater integrated product teams effective, improve contractor
                        accountability, and review the human capital plan to ensure adequate staffing.

                        Also, in June 2004, GAO reported that Deepwater program officials had not
                        updated the initial 2002 integrated acquisition schedule. 3 During its review,
                        GAO attempted to identify a current acquisition status and found that a
                        number of selected Deepwater assets had experienced delays and were at risk
                        of being delivered later than anticipated. Therefore, GAO recommended that
                        the DHS Secretary require the Coast Guard to update its integrated acquisition
                        schedule as part of its FY 2006 budget submission. Further, in a 2005 report,



2
  Contract Management: Coast Guard’s Deepwater Program Needs Increased Attention to Management and Contractor 

Oversight, U.S. Government Accountability Office (GAO-04-380, March 2004). 

3
  Deepwater Program Acquisition Schedule Update Needed, U.S. Government Accountability Office (GAO-04-695, 

June 2004).


                          Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                           Implementation of Deepwater Information Technology Systems


                                                     Page 5 

                         GAO said the Coast Guard had not captured, to the full extent possible, the
                         decline in the condition of its assets. 4

                         More recently, in April 2006 GAO reported that the Coast Guard has made
                         progress in addressing some of the management oversight issues identified in
                         previous reports.5 Specifically, GAO noted that the Coast Guard has provided
                         additional guidance, training, criteria, and measures to improve its program
                         management assessments of the system integrator’s performance.
                         Additionally, the Coast Guard has changed award fee measures to better hold
                         the system integrator accountable for ensuring effective integrated product
                         teams. Award fee criteria have been expanded to incorporate administration,
                         management commitment, collaboration, training, and empowerment of these
                         teams. GAO reported that the Coast Guard has taken steps to implement the
                         recommendations, however it is too early to determine the effectiveness of
                         these efforts.

                         As part of our ongoing responsibility to assess the efficiency and effectiveness
                         of departmental programs and operations, we conducted an audit of the Coast
                         Guard’s Deepwater information technology. The objectives of our audit were
                         to evaluate the effectiveness of Coast Guard efforts to identify C4ISR systems
                         requirements, and to determine how well these systems are being
                         implemented to support the Deepwater program. The scope and methodology
                         of this audit are discussed in Appendix A.

Results of Audit

System Development Approach Could Be Improved
                         The Coast Guard’s efforts to develop its Deepwater C4ISR systems could be
                         improved. Although agency officials are involved in high-level Deepwater
                         requirements definition processes, they have limited influence over the
                         decisions that the contractor makes toward meeting those IT requirements.
                         Due to a lack of discipline in adhering to systems requirements change
                         management processes, there is little assurance that the requirements are
                         complete or effective in meeting program goals. Ensuring consistent
                         certification and accreditation of Deepwater C4ISR equipment has been
                         difficult to achieve, thus placing systems security and capabilities at risk.
                         Further, although the Deepwater program has established procedures for IT

4
  Preliminary Observations on the Condition of Deepwater Legacy Assets and Acquisition Management Challenges, U.S.
Government Accountability Office (GAO-05-307T, April 20, 2005).
5
  Changes to Deepwater Plan Appear Sound, and Program Management Has Improved, but Continued Monitoring Is
Warranted, U.S. Government Accountability Office (GAO-06-546, April 2006).

                           Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                            Implementation of Deepwater Information Technology Systems


                                                      Page 6 

                          testing, the contractor has not consistently applied these procedures to ensure
                          effective performance of C4ISR systems and the assets on which they are
                          installed.

                          Requirements Definition Process Not Fully Effective

                          Office of Management and Budget Circular A-11 establishes policies for
                          planning and managing IT investments to ensure that funds expended achieve
                          intended benefits.6 Specifically, a supplement to the circular directs agencies
                          to reduce project risk by involving stakeholders in the definition of
                          requirements and the design of IT assets to meet mission needs.7 While Coast
                          Guard officials are involved in initial requirements definition processes at an
                          operational level, the users have little input into subsequent efforts to identify
                          the Deepwater IT systems needed to meet those requirements. Instead, the
                          contractor has sole responsibility for determining systems functionality at the
                          next level, and outlining the steps toward implementing the systems in line
                          with the functional requirements.

                          The Coast Guard has a structured process in place to help support Deepwater
                          requirements definition (see Figure 3). The process begins when the Office of
                          Response, considered the Deepwater program sponsor, provides a mission
                          needs statement for approval by senior DHS and Coast Guard management.
                          Deepwater program officials provided the initial mission needs statement for
                          approval in 1996, but subsequently updated it in 2000 and 2005 to address
                          increased homeland security needs since the September 11, 2001, terrorist
                          attacks. The mission needs statement broadly outlines high-level
                          requirements to align the Deepwater program with the department’s mission,
                          vision, and strategic goals. After the DHS Deputy Secretary signed the
                          mission needs statement, the Coast Guard was authorized to develop
                          technology to meet its Deepwater program requirements.

                          Deepwater officials subsequently divided the overarching program
                          requirements into various functional areas, such as the C4ISR domain. The
                          first step in breaking down Deepwater C4ISR requirements entailed producing
                          a system performance specification document based on the mission needs
                          statement. This system performance specification document, created by Coast
                          Guard officials, discussed the high level operational capabilities that it expects
                          the technology to provide. For example, the command and control system


6
  Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets, Executive Office of the 

President, Office of Management and Budget, June 2005. 

7
  Capital Programming Guide, version 1.0, supplement to Circular A-11, Executive Office of the President, Office of 

Management and Budget, July 1997. 


                             Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                              Implementation of Deepwater Information Technology Systems


                                                        Page 7 

shall provide tools for developing operational mission and crisis action plans
to assist in prioritizing and adjusting the use of available assets.

Further, the Deepwater contractor mapped the operational capabilities
document to a system requirements specification document that it created,
outlining the specific technologies and functions that it planned to provide to
meet the contract requirements. Subsequently, the contractor divided its
system requirements specification document into several C4ISR “asset
performance specifications documents,” defining the hardware and software
requirements for each Deepwater asset (e.g., ship or aircraft). Working
through this structured process, the Coast Guard has been able to trace its
Deepwater program requirements, at least at a high level, back to the
department’s strategic homeland security goals.


                                     Requirements Definition




   Operational                                      System
                      Architecture                                              Functional       Hardware/
  Concept and                                    Requirements
                       Definition                                               Definition   Software Definition
 Mission Analysis                                  Definition




        System                          System                  C4ISR Asset
      Performance                     Requirements              Performance
      Specification                   Specification             Specification




Figure 3: Requirements Definition Process

However, beyond this process, the contractor has principal authority to further
define system requirements and the steps needed to meet those requirements.
Per the Deepwater contract, many IT requirements documents do not require
prior Coast Guard approval. For example, according to one contract official,
the contractor generally gives the Coast Guard 30 days to review documents.
However, because of a shortage of personnel to conduct the document
reviews, the agency has difficulty responding within that time frame. By the
time that the Coast Guard is able to review the documents, the contractor has
moved ahead with its plans to keep on schedule. One Coast Guard official
stated that the agency must then either accept the work that the contractor has
performed or submit a change request, which may require additional funding.



  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                                     Page 8 

                         Initially, when the contractor presented the C4ISR increment one test and
                         evaluation program plan to the Coast Guard, agency officials identified
                         deficiencies with the plan and did not accept it. These deficiencies included
                         inadequate explanation of C4ISR increment one domain level testing, no test
                         schedule, and inadequate requirements traceability to the test events. After
                         the contractor submitted the test and evaluation program plan a second time
                         with revisions, Coast Guard officials were forced to accept the document due
                         to schedule pressures. Nonetheless, Coast Guard officials commented that
                         several corrections still needed to be made to the document, but they were
                         minor and likely would not impinge on program areas such as scheduling or
                         performance specification completion.

                         Per contract agreements, the contractor also controls the integrated product
                         teams formed to provide cross-representational input to Deepwater program
                         requirements. These teams serve as a venue for discussing specific C4ISR
                         issues and technologies. Although the teams are comprised of contractors and
                         Deepwater program and operational staff, the ultimate authority for the teams
                         rests with the chairperson who is a contractor. As such, the contractor drives
                         the discussions regarding fundamental program requirements and controls the
                         technology change decisions forwarded for implementation. In response to
                         our draft report, Coast Guard officials noted that since 2005 they have taken
                         steps to address these issues concerning integrated product team involvement
                         in the requirements definition process. Specifically, they said that Coast
                         Guard representatives now participate on all four integrated product teams to
                         help formulate contractor decisions toward meeting IT requirements. Coast
                         Guard representatives also participate in Technical Solution Reviews hosted
                         by the contractor.

                         Lack of Discipline in Requirements Change Management

                         According to federal guidelines, IT architectures should be used to guide
                         changes for new and operational systems.8 Failure to follow effective change
                         management or configuration management processes can lead to systems
                         availability problems. Specifically, the Gartner Group, a leading provider of
                         IT industry research and analysis, reports that an average of 80 percent of
                         unplanned systems downtime is caused by people and process issues,
                         including poor change management practices.9 Enterprises that have strong
                         change management practices typically have the highest levels of systems
                         availability.


8
  Memorandum 97-16, Information Technology Architectures, Executive Office of the President, Office of Management 

and Budget, June 18, 1997. 

9
  NSM: Often the Weakest Link in Business Availability, Gartner, Inc., July 3, 2001. 


                           Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                            Implementation of Deepwater Information Technology Systems


                                                      Page 9 

The Deepwater program faces a constant challenge in ensuring adherence to
its process for submitting, reviewing, approving, and implementing changes to
systems requirements to ensure that they remain up-to-date and effective in
meeting program goals. There are at least two types of systems requirements
changes—those affecting high-level operational requirements and those
affecting functional capabilities. Deepwater integrated product teams or Coast
Guard officials responsible for managing the C4ISR domain can only
recommend changes to functional requirements. A Deepwater program
sponsor is required to initiate all changes to operational requirements, which
then must be approved by the Coast Guard’s acquisition executive for further
consideration.

In either case, the requirements changes must be cleared through the
contractor’s peer review process and then presented for discussion at an
engineering technical review. Following the engineering technical review, the
changes are forwarded to the Deepwater Specification Change Review
Implementation Baseline and Evaluation board, where the contractor and the
Coast Guard discuss the new or revised requirements. Upon approving the
requirements change, the board also determines the associated cost and
submits the change request to a joint change control board for review; the
C4ISR asset piece back document is then modified. If the board disapproves
the requirements change, the request is placed in a holding file for discussion
at a later date.

A number of Coast Guard officials stated that this requirements change
process is not always followed. One official stated that some people
circumvent the process by requesting changes directly of the contractor staff
on site. For example, one Deepwater C4ISR official told us that if changes
are needed to the National Security Cutter being built in Pascagoula,
Mississippi, the Coast Guard staff there will talk directly to the contractors on
site to obtain the changes rather than seek approval through the program
office. A C4ISR official expressed concern at sometimes not learning about
the changes made by the surface domain until the contractor requests payment
for the deviations, which can lead to potential cost and schedule overruns
without Coast Guard management’s awareness.

Several critically needed changes to the C4ISR approach and requirements
have been overlooked. A number of Coast Guard officials stated that some
C4ISR requirements, which were identified after September 11, 2001, have
not been introduced into the Deepwater program. For example, the contractor
continues to focus on the original requirement to use the automatic
identification system to ensure safety of life at sea rather than the exchange of
sensitive but unclassified tactical information, as more recently directed by the
Coast Guard. Because of the delay in implementing such requirements

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 10 

                          changes, the Coast Guard may not have what it needs to meet its post 9-11
                          homeland security missions.

                          Similarly, one Coast Guard official stated that requirements generated from a
                          Deepwater program performance gap analysis, directed by the Commandant
                          in 2003, have not been implemented. The report resulting from the gap
                          analysis states that, although the Deepwater concept of operations stresses
                          interoperability, it does not outline plans for ensuring that both technical and
                          operational interoperability requirements are met. For example, technical
                          interoperability requirements for items such as sensors, radios, and radar are
                          covered; however, there are few clear examples of how the various Deepwater
                          assets equipped with the C4ISR systems will work together. This lack of
                          clarity can hinder seamless interoperability between Deepwater systems and
                          other key initiatives, such as the Coast Guard’s “Rescue 21” command,
                          control, and communications system. Additionally, the interoperability
                          discussion in the Deepwater concept of operations is Coast Guard-centric and
                          does not address interoperability with other DHS components or the
                          Department of Defense.

                          At times, Coast Guard policy modifications can necessitate involuntary
                          changes to Deepwater C4ISR systems design to ensure continued
                          interoperability across agency assets. The Coast Guard decided to implement
                          the Automatic Messaging Handling System at its Communications Area
                          Master Stations instead of adopting a messaging system that the Deepwater
                          program was in the process of acquiring. As a result, the Deepwater program
                          had to switch to using the same system so that its assets could continue to
                          communicate with other Coast Guard components. This change may affect
                          not only the design of the Deepwater C4ISR system but the contract cost and
                          schedule as well.

                          Systems Certification and Accreditation Issues

                          Federal guidelines require that agencies establish processes to authorize and
                          ensure the security of the IT systems that they implement.10 As part of these
                          processes, IT systems must undergo certification and accreditation—a risk-
                          management framework for meeting federal information security
                          requirements.11 Certification and accreditation is comprised of four distinct
                          phases: systems initiation, security certification, security accreditation, and
                          continuous monitoring. Each phase in the process consists of a set of well-
                          defined tasks including testing, inspections, and documented agreements

10
  Federal Information Security Management Act of 2002 (FISMA), Public Law 107-347, Title III, December 17, 2002.
11
  Guide for the Security Certification and Accreditation of Federal Information Systems, National Institute of Standards
and Technology, Special Publication 800-37, May 2004.

                             Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                              Implementation of Deepwater Information Technology Systems


                                                        Page 11 

among responsible authorities. Three types of accreditation decisions can be
rendered at the end of the process: authorization to operate, interim
authorization to operate, or denial of authorization to operate. The Deepwater
contractor is required to build, test, and implement computer systems in
compliance with the Department of Defense Information Assurance and
Defense Information Technology Security Certification and Accreditation
Process (DITSCAP) to ensure that they achieve authorization to operate.

However, achieving such authorization has proven difficult for Deepwater
C4ISR systems. For example, the contractor is having problems achieving
authorization to operate the new Coast Guard command and control system
being installed at the District 7 Miami shore site. The system underwent
several vulnerability scans and failed because it was not built in accordance
with DITSCAP guidelines. Because of the unmitigated vulnerabilities,
Deepwater program officials have not been able to present the system to the
Coast Guard’s Secret Internet Protocol Router Network (SIPRNET)
Management Office and receive authorization to operate. The system must
achieve a minimal, accepted level of risk before it can be approved and put
online. The delay in making the new C4ISR suite operational has had a ripple
effect, delaying system implementation at other shore sites and on assets.

Similarly, the Deepwater program initially experienced problems in certifying
and accrediting the command and control system that the Coast Guard uses on
its 123-foot patrol boats. A version of the system received authorization to
operate while the contractor worked to address the minor vulnerabilities
identified. However, despite creating additional system versions to try to
mitigate the vulnerabilities, the contractor was not successful and therefore
these other versions could not receive final authorization to operate. In April
2006, the SIPRNET Management Office informed Deepwater program
managers that, unless the vulnerabilities were addressed within 45 days,
access to SIPRNET would be revoked. To assist the contractor in meeting the
deadline, the Coast Guard provided a “best practice” software development
process that other agency units use to meet DITSCAP requirements for
deploying their systems. The contractor aligned its software development
approach with these best practice guidelines and, in May 2006, achieved
authorization to operate a new version of the command and control system on
its 123-foot patrol boats.

This command and control system installed on the 123-foot patrol boats
constitutes the baseline for the core C4ISR system currently being deployed at
Coast Guard shore facilities. This core C4ISR system, in turn, constitutes part
of a larger C4ISR system, which will be installed on other Deepwater assets,
such as the National Security Cutter. Because it has many components,
successfully accomplishing certification and accreditation for the National

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 12 

                        Security Cutter’s C4ISR equipment will be especially difficult. As such, the
                        contractor expects to apply the lessons learned in achieving certification and
                        accreditation for the command and control system to its broader Deepwater
                        system deployment efforts. A number of Coast Guard officials emphasized
                        the need to successfully certify and accredit the core system to avoid the risk
                        of losing SIPRNET capability, which is critical for all of Deepwater’s 123
                        foot patrol boats and legacy cutters. Such secure connectivity allows
                        Deepwater assets to coordinate missions quietly without radio chatter and
                        sneak up on their targets without revealing their positions.

                        Inadequate Systems Testing

                        According to federal regulations, agencies are responsible for ensuring
                        effective and efficient operation of IT equipment.12 This entails proving that
                        new systems function properly in a “production-like” test environment and
                        contain needed safeguards.

                        While the Deepwater program has established a process for systems testing, a
                        number of Coast Guard officials believe that this process could be improved.
                        The contractor uses the four following methods to test Deepwater C4ISR
                        systems:

                        • 	 Analysis, to determine if the system meets performance requirements.
                        • 	 Inspection, to verify with the five human senses that the system has been
                            assembled correctly.
                        • 	 Demonstration and follow-up, to ensure that the system is working
                            correctly.
                        • 	 Final testing, to verify functionality with real life data analysis.

                        The contractor may not use all four procedures to test each system; rather, the
                        contractor has the authority to determine which method or combination of
                        methods will be used. In general, the testing completed by the contractor
                        takes place at the Maritime Domain Awareness Center in Moorestown, New
                        Jersey and its supporting laboratories.

                        Our review disclosed problems with the simulation equipment that the
                        contractor uses at the Maritime Domain Awareness Center to perform
                        vulnerability scans on C4ISR systems during the demonstration and final
                        testing phases. Vulnerability scans using the simulation equipment are to help
                        ensure that the C4ISR systems they replicate are compliant with applicable
                        security standards. However, several simulator shortcomings may hinder

12
  Office of Management and Budget Circular A-130, Transmittal Memorandum #4, Management of Federal
Information Resources, November 28, 2000.

                          Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                           Implementation of Deepwater Information Technology Systems


                                                     Page 13 

achievement of this objective. Specifically, Coast Guard officials told us that
the simulation equipment used for the vulnerability scans has difficulty
calculating how C4ISR systems work in real situations on cutters or at shore
sites; the simulators therefore may produce inaccurate results. Further,
because the contractor has not compared simulator performance to that of real
C4ISR systems, discrepancies may result when the C4ISR systems are
deployed to new assets or shore sites. Additionally, the simulation equipment
has not undergone certification and accreditation to help ensure that it mimics
the true C4ISR environment. Successfully certifying and accrediting the
simulation equipment can increase the probability that the real C4ISR systems
will function properly. While Coast Guard officials recognize the potential
benefits to certifying and accrediting simulators, the contractor has resisted,
asserting that to do so would require additional funding.

Further, although the Navy’s Commander, Operational Test and Evaluation
Force (COMOPTEVFOR) in Norfolk, Virginia is supposed to play a
significant role in completing C4ISR testing, its participation in test activities
to date has been limited. This is an independent group responsible for
reporting to Deepwater sponsors on the operational capabilities of the C4ISR
systems implemented by the contractor. Ideally, COMOPTEVFOR should
have participated in the initial phases of Deepwater C4ISR development to
help identify possible “faults or concerns” that could affect the operational
system. Instead, the contractor provided this group access to the C4ISR
systems only after they were installed on the completed 123-foot patrol boats.
At that point, it completed operational testing of the systems on the 123s, but
not on the legacy cutters that also had received portions of the C4ISR
upgrades. The ensuing report from these operational tests noted problems
with C4ISR equipment installation, training, and integration with other off-
the-shelf command and control systems already installed on the 123-foot
patrol boats. Also, the report indicated that, with the exception of the
SIPRNET, the C4ISR systems did not operate as promised to meet Coast
Guard requirements.

Recommendations

We recommend that the Commandant, U.S. Coast Guard, direct the
Deepwater Program Executive Officer to:

    1. 	 Increase agency input and oversight of the requirements definition
         process to ensure the contractor activities meet program goals and
         objectives.
    2. 	 Clearly define and communicate system requirements change
         management processes to ensure they are consistently used to identify,


  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 14 

                       evaluate, and apply changes as appropriate, to Deepwater C4ISR
                       requirements.
                  3. 	 Ensure that, in line with federal guidelines, the contractor takes steps
                       to mitigate security vulnerabilities that have hindered achievement of
                       C4ISR system certification and accreditation.
                  4. 	 Address shortcomings with simulation equipment and provide the
                       access needed to support independent test and evaluation of C4ISR
                       systems and equipment to ensure that they operate efficiently and
                       securely.

Deepwater Systems Implementation Challenges
              The Coast Guard faces a number of challenges to implementing effectively its
              Deepwater C4ISR systems. Due to limited oversight, a lack of clarity
              regarding contract requirements, and limited input into selection decisions, the
              agency cannot ensure that the contractor is fully meeting its Deepwater IT
              needs. Insufficient funding of C4ISR and engineering components has
              restricted achievement of integrated “system-of-systems” objectives—the
              linchpin of the Deepwater program. Inconsistent training, inadequate
              instructors, and a lack of reference materials hinder users from realizing the
              full potential of the C4ISR upgrades. And, ensuring effective service and
              support for C4ISR systems and users have been equally challenging.

              Contract Management Structure Limits Oversight and Control

              Although the performance-based Deepwater contract has the potential to
              increase contractor flexibility and reduce costs, it has several drawbacks as
              well. Specifically, due to a lack of funding and experience with performance-
              based acquisitions, the Coast Guard has not allocated sufficient resources to
              effectively oversee Deepwater contractor activities. Due to a lack of clarity in
              the contract terminology, there is some confusion about contractor
              responsibilities for producing the C4ISR systems, hindering timely and
              effective accomplishment of Deepwater program goals. The contractor has
              considerable autonomy in making Deepwater IT selections, which some
              believe are not always in the best interest of the agency, too.

                      Deepwater Contract Structure

              The federal government requires that agencies maximize use of performance-
              based contracts to acquire services or products. The intent is for agencies to
              describe their needs in terms of what is to be achieved rather than how it is to
              be done, giving the contractor flexibility in the processes and proposed
              solutions toward meeting agency mission needs—and thereby decreasing the


                Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                 Implementation of Deepwater Information Technology Systems


                                           Page 15 

                            total cost of program ownership. Further, interagency guidance on
                            performance-based acquisitions states that the contracts should be structured
                            in such a manner as to ensure meaningful agency oversight of contractor
                            progress toward meeting requirements, milestones, and program goals.13
                            Adequate federal resources must be applied effectively to carry out these
                            oversight responsibilities. Statements of work pursuant to the performance-
                            based contract also should be clearly written to ensure that contractor
                            activities and products deliver intended benefits.

                            As previously discussed, in 2002 the Coast Guard awarded a performance-
                            based contract to accomplish its Deepwater program. The Coast Guard
                            awarded ICGS the role of prime contractor and overall systems integrator,
                            with responsibility for designing, deploying, and integrating all of the air,
                            surface, and shore assets and technologies needed for maritime domain
                            awareness. Essentially, ICGS is a joint venture between Lockheed Martin and
                            Northrop Grumman Ship Systems, with each company serving as first-tier
                            subcontractors for the Deepwater program. As such, Lockheed Martin and
                            Northrop Grumman Ship Systems can either provide Deepwater assets and
                            systems themselves, or award this responsibility to second-tier subcontractors.
                            Figure 4 illustrates the contractor relationships. (See Figure 4.)

                                                               U.S. Coast Guard
                                                                  (Customer)




                                                            Integrated Coast Guard
                                                              Systems (Integrator)




                               Northrop Grumman Ship Systems                      Lockheed Martin System and
                                     (Tier One Contractor)                        Sensors (Tier One Contractor)




                                 Tier Two          Tier Two                        Tier Two           Tier Two
                                Contractor        Contractor                      Contractor         Contractor



                            Figure 4: Deepwater Contractor Relationships


13
     Seven Steps to Performance-Based Services Acquisition, An Interagency-Industry Partnership in Performance.

                               Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                                Implementation of Deepwater Information Technology Systems


                                                          Page 16 

To help execute the contract, in December 2002 the Coast Guard and ICGS
signed a partnering agreement, which outlines their respective responsibilities
and how they will work together to carry out the program. The agreement
states that the Coast Guard is responsible for managing operational
requirements; providing a uniform understanding of agency needs,
perspectives, and constraints; responding to mission demand and
environmental changes; ensuring contract oversight; and, operating the
Integrated Deepwater System. Accordingly, the Coast Guard has an essential
role to play in overseeing program management and ensuring that contractor
activities are aligned with program goals and objectives. Conversely, ICGS is
responsible for defining, managing, integrating, and constructing Deepwater
assets and systems to comprise a single integrated system. As such, the
contractor is responsible for providing Deepwater solutions and results, but in
keeping with overarching Coast Guard direction. The goals of the partnering
agreement include:

• 	 Maximizing operational effectiveness and minimizing costs.
• 	 Delivering assets and systems in accordance with prescribed cost,
    schedule, and technical performance objectives.
• 	 Ensuring a collaborative work environment.
• 	 Communicating openly and honestly to avoid mistakes and surprises.
• 	 Managing risks by anticipating and resolving problems promptly.
• 	 Resolving issues before they escalate.

        Contract Management Staff

Due to funding limitations and a lack of experience with performance-based
acquisitions, the Coast Guard has not allocated sufficient resources to
effectively carry out its responsibility for overseeing the Deepwater contract.
Coast Guard officials at both the Systems Integration Program Office and the
Maritime Domain Awareness Center told us of the need for additional Coast
Guard personnel to provide agency perspectives and oversight by attending
meetings on Deepwater program management, requirements definition, and
systems design issues. Also, officials said that additional Coast Guard
resources are needed to review the large number of contractor plans and
documents to ensure that contract requirements are being met. For example,
one official estimated that the ratio of Deepwater contractors to Coast Guard
program management personnel at the Maritime Domain Awareness Center—
a primary contractor facility responsible for system development testing—is
about 20 to 1. Based on years of experience in helping to oversee contractor
activities at the center, this official said that a ratio of 10 to 1 would be more
appropriate.



  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 17 

Staff currently assigned to Deepwater program management are overworked
and pulled in many directions to provide coverage. Where staff must act in a
program oversight capacity in addition to carrying out their direct
responsibilities, their workloads are overwhelming. Program oversight
activities include reviewing requirements, developing statements of work,
overseeing systems installation, conducting training, providing technical
feedback, and attending meetings at the program office in Washington, DC as
well as the contractor’s facility in Moorestown, New Jersey. For example,
one Coast Guard official whom we interviewed serves as a liaison between the
two locations. This official must travel back and forth to carry out his
responsibilities for establishing systems policy and direction, promoting
awareness of program progress, and communicating issues related to
Deepwater requirements. A program management official questioned the
impact that such thinly stretched oversight personnel are having on the
Deepwater program. This official surmised that essential oversight activities
are likely being overlooked, posing potential risks to successful contract
accomplishment.

Further, the prime contractor is not adequately staffed to ensure that the
subcontractors are fulfilling their obligations. For example, one Coast Guard
official said that the system integrator has only two individuals working on
program management issues for the entire C4ISR domain: A C4ISR associate
program manager responsible for increment one shore assets, and a deputy
associate program manager responsible for increment one surface and air
assets. Together, these officials are responsible for overseeing the
contractor’s costs, performance, and schedule and notifying the Coast Guard if
there are any problems. However, given the myriad issues related to
Deepwater C4ISR, realistically they must focus on addressing the high-
priority items at the expense of more minor concerns. This staffing limitation
frustrates Coast Guard program management officials, who sometimes have to
wait months for issues to be addressed.

Similarly, the number of subcontractors assigned to carry out specific contract
activities has not always been adequate. For example, there are only three
subcontractor representatives located at the Maritime Domain Awareness
Center with adequate expertise to ensure systems certification and
accreditation. A Coast Guard official we interviewed believes that the number
of personnel should instead be between 10 and 15 to cover the wide-ranging
C4ISR systems that need review and testing. Another official said that this
lack of technical personnel has contributed to delays in implementing the
command and control system for District 7.

Officials said that they believe the contractors are not adequately fulfilling
their duties because Coast Guard personnel must fill-in and provide support.

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 18 

This workload places additional strain on the already limited number of Coast
Guard program management and oversight personnel. Officials told us that
the Deepwater program would be adequately resourced if the prime contractor
were not acting as both a systems integrator for the overall program, as well as
a subcontractor with hands-on responsibilities for designing, developing, and
implementing assets and systems. They said that this arrangement taxes the
Coast Guard’s resources needed to provide requirements review and systems
testing, training, and support.

The Coast Guard has recently taken steps to try to address the lack of
Deepwater contract management resources. Specifically, in FY 2005,
program management requested that each program domain examine the 2002
Deepwater Human Capital Plan and determine whether additional staff was
needed. Accordingly, C4ISR program managers requested an additional 28
government and contract staff resources to help with contractor oversight and
other activities such as system certification and accreditation. In response,
however, the C4ISR component only received five additional staff and
remains challenged in its ability to adequately oversee the program.

        Confusion Concerning Contractor Responsibilities

Due to a lack of clarity in the Deepwater contract and supporting documents,
there is some confusion about contractor responsibilities in producing C4ISR
systems. In several instances, the Coast Guard and its contractors have tended
to interpret the terms of the contract differently, posing hindrances to timely
and effective accomplishment of Deepwater program goals. Several Coast
Guard officials stated that the contractor does not fully understand the
agency’s organization and mission because frequent meetings between the
contractor and the Coast Guard are required to discuss the meaning of words
used in the program documentation.

To illustrate: In November 2003, the Coast Guard provided a letter to the
contractor stating that, contrary to the concept of operations, satellite
communications plans did not include SIPRNET connectivity for Deepwater
cutters operating out-of-hemisphere in ocean regions other than the Atlantic
and Pacific. In its written response, the contractor disagreed with this
assertion and stated that the level of connectivity it had provided was in
keeping with the task order. Further, the contractor stated that the concept of
operations did not specify when satellite communications for the out-of
hemisphere cutters would be needed. The contractor nonetheless agreed to
identify alternative solutions for leasing additional satellite connectivity for
the Coast Guard’s out-of-hemisphere cutters. The contractor reiterated,
however, that pursuing these alternative solutions was beyond the scope of the
task order and requested reimbursement for all additional costs. The Coast

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 19 

Guard ultimately agreed because it needed the satellite connectivity to
communicate and coordinate mission activities with the cutters that were
operating out-of-hemisphere. In response to a draft of our report, the Coast
Guard noted that the above letter was written several years ago and that there
has been tremendous improvement since that time.

Additionally, many of the systems testing and approval problems previously
discussed can be attributed to initial difficulty that the Coast Guard had in
getting the subcontractor to accept responsibility for certification and
accreditation. From the Coast Guard’s perspective, the Deepwater contract
assigned the subcontractor responsibility for identifying and assessing C4ISR
systems vulnerabilities, as well as providing software security updates.
However, according to a Coast Guard official, the subcontractor believed that
it was only responsible for providing a “certifiable” system that could pass
certification and accreditation requirements at a later date. The subcontractor
initially asserted that the Coast Guard would incur additional costs if it were
to require changes to contractor procedures for developing software as a
means of ensuring that the security requirements could be met. However,
after a Coast Guard contracting officer provided written guidance in April
2006, the subcontractor was able to provide a certifiable system for the 123
foot patrol boats.

Finally, the Coast Guard has a responsibility to oversee the contractor’s
processes for accomplishing contract goals and deliverables; however, it has
been difficult to get the contractor to provide such a window into its
operations. For example, the contractor recently completed a C4ISR
operating system scan, which identified security vulnerabilities. The
contractor stated that it could not resolve the vulnerabilities without causing
the system to lose functionality. When the Coast Guard asked for more
details, the contractor resisted, stating that it was not required by the contract
to provide such information. In May 2006, however, a Coast Guard official
stated that the contractor was working to provide the requested information.

        Contractor Decisions May Not Meet Agency Needs

By limiting the Coast Guard’s role in determining contractor processes and
solutions, the performance-based Deepwater contract is intended to promote
contractor flexibility and success toward achieving program goals. However,
the contract has a number of drawbacks as well. Specifically, it gives the
contractor considerable autonomy in selecting the systems and equipment it
believes will fulfill performance objectives outlined in the statement of work.
Under ordinary circumstances, this arrangement can prove beneficial.
However, officials were concerned that the two parties to the joint venture,


  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 20 

                         who serve as subcontractors for the program as well, lack the independence
                         needed to make objective decisions in the best interest of the Coast Guard.

                         In purchasing its Automatic Identification System, for example, the contractor
                         selected a vendor other than the one that the Coast Guard already uses to
                         provide similar functions for its non-deepwater fleet. A Coast Guard official
                         suggested that the decision was based more on the fact that the vendor was
                         under contract than on the superior capabilities or competitive costs of its
                         system. Similarly, the Deepwater contractor selected a brand of radios that
                         may not be interoperable with other brands of radios used by other
                         government agencies. In a recent survey, one Coast Guard official expressed
                         concerns that the Deepwater contractor typically exerts little effort to ensure
                         that the IT products it selects are aligned with the rest of the agency. Using
                         different brands of equipment with different operating procedures and
                         requirements can lead to increased risk that Coast Guard users will not be able
                         to communicate effectively, in addition to causing problems in providing IT
                         training, support, and spare parts in the long-term. Such disparities also create
                         a divide between Deepwater and non-Deepwater assets, making it difficult for
                         Coast Guard personnel to transition from one asset to another without having
                         to be retrained on different equipment.

                         In its March 2004 report, GAO discussed issues related to the lack of
                         competition and contractor independence in deciding on Deepwater
                         acquisitions.14 Specifically, it reported that the two subcontractors comprising
                         the joint venture have sole responsibility for determining whether to hold
                         competitions for Deepwater assets or to provide the assets themselves. GAO
                         stated that over 40 percent of the funds obligated to the two subcontractors
                         have remained with those companies or been awarded to their subsidiaries.
                         Further, GAO noted that the Deepwater systems integrator uses a sourcing
                         document developed by one of its subcontractors to guide competition
                         decisions made by the subcontractors. However, this guidance is a
                         philosophy—not a formal process involving specific actions—which
                         encourages competition, but does not require it. GAO concluded that the lack
                         of transparency into significant make or buy decisions, and the government’s
                         lack of a mechanism to hold the contractor accountable, raise questions about
                         whether the Coast Guard will be able to control costs. GAO found that as of
                         September 30, 2003, Lockheed Martin planned to retain 42 percent of its
                         obligated dollars and to award 58 percent to second-tier subcontractors. In
                         response to our draft report, the Coast Guard stated that it had hired a
                         contractor to assess the extent of second-tier competition conducted by the
                         prime contractor, as a means of addressing the GAO recommendations. The


14
     GAO-04-380, March 2004.

                           Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                            Implementation of Deepwater Information Technology Systems


                                                      Page 21 

contractor provided nine suggestions for addressing the GAO
recommendations, of which the Coast Guard has implemented eight.

C4ISR and System Engineering Funding

Office of Management and Budget Circular A-130 directs federal agencies to
develop information systems that facilitate interoperability across networks of
heterogeneous hardware, software, and telecommunications platforms. IT
planning to achieve these objectives should be linked to expected program and
mission needs, reflect budget constraints, and form the basis for budget
requests.

As previously discussed, the Deepwater “system-of-systems” approach is
intended to deliver a package of C4ISR systems across all of the program’s
new or upgraded sea, air, and shore assets. The approach involves enhanced
command and control systems as well as a streamlined logistics structure to
support a layered defense of major cutters, patrol boats, helicopters,
unmanned aerial vehicles, and maritime patrol aircraft—all connected using a
single command and control architecture. The C4ISR capabilities comprise a
fundamental building block toward providing the interoperability, situational
awareness, and communications needed to detect, intercept, and interdict
potential threats in the maritime domain. This integrated “mix of forces”
solution, including minimal development of assets and, wherever possible,
procurement of state-of the-art products and technologies, is a departure from
traditional one-for-one asset acquisition programs. Engineering support for all
design, test, and production activities is key to ensuring a fully integrated
Deepwater system. Engineering teams are responsible for performing the
necessary analysis and tradeoffs, recognizing when interface impacts might
occur, and taking early action to avoid integration problems.

However, insufficient funding for C4ISR and systems engineering and
integration components of the Deepwater program has restricted achievement
of the intended “system-of-systems” approach. While Deepwater is an
essential acquisition, it faces the same budget realities as other federal agency
programs. Specifically, each year the Office of Management and Budget
requires that the Coast Guard include full funding for the Deepwater program
in its agency-wide capital plan. However, whereas the President’s budget
request for the C4ISR program in FY 2006 was about $74 million, the Coast
Guard only received approximately $44 million—about $30 million less than
the amount that the Coast Guard said it needed to achieve its FY 2006 C4ISR
objectives.

Due to the reduced level of funding in FY 2006, the Coast Guard has been
hindered in accomplishing some C4ISR initiatives as scheduled. For example,

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 22 

                            detailed design and development activities for C4ISR increment two have
                            been delayed by at least three months. This, in turn, has resulted in a delay in
                            implementing enhanced maritime domain awareness capabilities across all
                            Deepwater assets by approximately one year. The President has requested
                            approximately $61 million for Deepwater C4ISR in FY 2007.

                            In conjunction with these C4ISR funding reductions, the systems engineering
                            and integration component responsible for supporting accomplishment of
                            Deepwater “system-of-systems” objectives has been under-funded, too.
                            According to the International Council on Systems Engineering, such
                            expenditures should constitute about 10 to 15 percent of a program’s budget.
                            However, Deepwater systems engineering and integration funding has
                            declined each year since the program’s inception, from a high of 20 percent of
                            the overall budget in FY 2002 to four percent in FY 2006. Without adequate
                            funds for engineering to support C4ISR systems integration, the risk is
                            increased that newly acquired air and surface assets may not provide the
                            interoperability across assets or the other capabilities that the Coast Guard
                            needs to perform its mission. Further, where adequate resources are provided
                            for Deepwater systems engineering and integration activities, there is greater
                            potential for increased product quality, reduced costs, and shorter program
                            schedules.

                            Inadequate User Training

                            Office of Management and Budget Circular A-130 requires that users of
                            federal information resources have the skills, knowledge, and training they
                            need to manage information resources, enabling the federal government to
                            serve the public through automated means. Similarly, the Clinger-Cohen Act
                            of 1996 states that agencies are responsible for ensuring that IT users receive
                            the training that they need to effectively perform their jobs.15 The Deepwater
                            challenge to train personnel to operate effectively the new and upgraded
                            C4ISR equipment in line with these requirements has been considerable.
                            However, given inconsistent and untimely training, a lack of knowledgeable
                            instructors, and inadequate reference materials, the program has not
                            effectively met this challenge. Unless the Coast Guard addresses these
                            training deficiencies, users may not be able to maximize the potential of the
                            C4ISR equipment provided through the Deepwater program.

                                    Training Not Timely

                            The Deepwater program has not fully ensured that users receive timely
                            instruction on operating new or upgraded C4ISR equipment. The primary
15
     Division E of Public Law 104-106.

                              Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                               Implementation of Deepwater Information Technology Systems


                                                         Page 23 

                         strategy has been to offer “just-in-time” training, which entails providing
                         informal, hands-on instruction to users shortly after systems are implemented
                         on the various surface and shore assets. Because of a lack of funding, the
                         program has not established “pipeline” training—a series of required courses
                         and continuing education—to instruct new or incoming crewmembers on how
                         to utilize C4ISR systems. In response to our draft report, the Coast Guard
                         agreed that funding constraints have limited training, but the contractor is
                         meeting funded contractual requirements nonetheless.

                         According to a number of Coast Guard crews, this lack of pipeline training is
                         a problem particularly for staff transitioning from one assignment to the next.
                         There is a general expectation that incoming staff will quickly learn to operate
                         the C4ISR equipment, even though they do not receive any formal training.
                         Whereas learning C4ISR user skills “on-the-fly” may be easy for technically
                         savvy crewmembers, it is more difficult for those that are not accustomed to
                         operating sophisticated IT equipment. Users who receive “just-in-time”
                         C4ISR training usually are expected to ease the transition for incoming
                         crewmembers by informally training them to use the upgraded IT equipment;
                         however, this is not always effective. Deepwater program officials typically
                         do not revisit assets to train crewmembers that were not present at the time of
                         initial “just-in-time” training.

                         The combined “just-in-time” and “train the trainer” strategy has several
                         additional limitations. For example, there is no helpdesk number to call for
                         follow-on assistance with the equipment after the “just-in-time” training has
                         been completed. Further, as the Deepwater program has evolved, there have
                         been fewer upgraded assets and therefore fewer people trained who have the
                         potential to provide informal instruction for incoming staff. According to an
                         April 2005 report by COMOPTEVFOR, not enough Coast Guard personnel
                         received “just-in-time” C4ISR training to serve as instructors for new
                         crewmembers who arrived on 123-foot patrol boats later in the year.16 The
                         review indicated that, as a result, it would be difficult for boat crews to sustain
                         institutional knowledge and pass that knowledge on to relief personnel over
                         the long-term.

                         Additionally, because the “just-in-time” approach involves providing training
                         in a piecemeal fashion, users can either forget what they learned about
                         component parts from earlier training, or not fully understand how the C4ISR
                         equipment works together as a whole. District 7 Command Center personnel
                         are required to receive 16 hours of training on Deepwater upgrades. However,
                         as of April 2006, they had received only eight hours because all C4ISR

16
 Update of the 123-foot Patrol Boat Operational Assessment Analysis Report of September 29, 2004, Department of the
Navy, Commander, Operational Test and Evaluation Force, April 27, 2005.

                           Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                            Implementation of Deepwater Information Technology Systems


                                                      Page 24 

training cannot be completed until the entire system becomes fully
operational. Unless the system goes online soon, it may be difficult for
District 7 users to link prior training to any future instruction that they receive
on the completed system.

Unlike the Deepwater program, the Command and Control Engineering
Center—a Coast Guard center of excellence—offers pipeline training. Such
training is centered on one Deepwater C4ISR component—the Command
Display and Control Integrated Navigation System—to help ensure that users
fully understand the upgrade. This training includes four days of formal
instruction on a laptop computer, one day of shipboard training, and two or
three days of training while at sea. Center officials are available for additional
training, as crewmembers need it. A number of Coast Guard officials believe
that Deepwater would benefit from adopting a similar approach to training.

        Inadequate Contract Trainers

A number of Coast Guard officials told us that the contractors hired to provide
“just-in-time” training are not well versed on the Deepwater C4ISR systems.
The officials said that the training that the contractors provide is minimal in
comparison with what the Coast Guard might provide on similar upgrades:
for example, it might consist of the contractor briefly reviewing features of the
equipment but without providing hands-on instruction. They said the
contractors tend to focus on technical and operational aspects of the systems
but do not address how to apply the technology to the Coast Guard mission
effectively. Additionally, they said that the training provided by the
contractor could be clearer and more understandable.

Further, Coast Guard officials expressed concern that the contract trainers
have little concept of how the various C4ISR upgrades link together. Officials
said that the contractors provide training on the individual component systems
in a piecemeal fashion and seem unsure of how the C4ISR package is
supposed to function as a whole. For example, one Coast Guard official
mentioned that training on a tactical component of the overall C4ISR system
was covered very quickly and only addressed basic concepts. This official
said that contract trainers provided no explanation as to how this component
fits within the overall C4ISR design. Because they received no hands-on or
operational training, crewmembers had to make do and read the instruction
manual to learn to use the system on their own time, taking them away from
their regularly assigned duties. The Coast Guard official suggested that,
without adequate operational training, crewmembers might not be able to
utilize the equipment effectively to meet their C4ISR needs.



  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 25 

Because contractor trainers are not always knowledgeable or available to
provide C4ISR guidance to crewmembers, Coast Guard officials sometimes
must assume these responsibilities. One Coast Guard official has been
assigned informally to provide hands-on C4ISR training on the 123-foot patrol
boats as well as carry out his primary duties, which include program
management, contract oversight, and system testing. Trainees also regularly
call this individual directly to ask follow-on questions, instead of contacting
Deepwater trainers. Trainees have found this individual to be more helpful
than some contractors in providing guidance on how to apply C4ISR
technology to Coast Guard missions and scenarios.




Figure 5: USCGC MATAGORDA, 123-Foot Patrol Boat

        Lack of Training Guidance

The Deepwater program offers limited reference materials to support C4ISR
users. Various training guides, which include systems operating instructions,
diagrams, troubleshooting advice, and references, have been published but are
not available on all cutters, especially some of the 123-foot patrol boats. (See
Figure 5 for a photograph of one such boat.) Crewmembers on one cutter
used the training guides at one point and found them very helpful. Other
documentation, such as Logistics Information Management System (LIMS)
and C4ISR operating manuals, also are available, however a Coast Guard
official described the latter as “pretty bad.” This official indicated that the
descriptions, terminology, and layouts of the manual differed from typical
Coast Guard guidance, making it difficult to use. Similarly, other users said
that the reference materials are very basic and do not address many of the
issues that they encounter in using the software. At times, users have to call a


  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 26 

Deepwater site representative, who phones the help desk, which in turn
contacts a contractor technician, for support. The contractor is supposed to
return the user’s call within a few hours, but officials said that this rarely
happens so obtaining assistance can be a time consuming process.

One Coast Guard official said that although some parts of the agency often
prepare quick reference cards for users on how equipment operates, the
Deepwater program has not done so. A crewmember on one cutter is using
his spare time to prepare such cards to help his colleagues address issues that
they encounter when operating the upgraded C4ISR equipment.

         Users Do Not Maximize Capabilities of C4ISR Equipment
  Capabilities of C4ISR Equipment Not Maximized
Given the weaknesses in its training approach, the Coast Guard may not be
able to maximize all of the potential uses of the C4ISR equipment provided
through the Deepwater program. Personnel whom we interviewed generally
provided positive feedback on the upgraded systems, but expressed concerns
about not receiving adequate training or guidance. They indicated that the
combined “just-in-time” and “train the trainer” method—whereby some users
receive instruction directly from contract trainers, some get this information
second-hand, and others are self-taught—has resulted in inconsistent user
knowledge and ability to operate the C4ISR equipment. Where crewmembers
have to figure out on their own how to use the new software, it can be very
time consuming. For example, it sometimes takes Coast Guard personnel up
to 15 minutes to connect to and utilize the SIPRNET capability provided to
Deepwater assets. This is too long, especially when they are at sea, tracking
illegal “go-fast” boats, which could possibly land on U.S. soil before network
connections are established.

Further, many users are unaware of or unable to fully utilize C4ISR
capabilities because they have not been trained on all of the component
systems. For example, a crewmember on one cutter that we toured was
overwhelmed with the number of C4ISR upgrades and was never able fully to
learn to operate the security cameras; he could focus only on operations gear
instead. Further, this official said that given the lack of training, he has not
learned to use SIPRNET or the common operating picture and therefore
cannot maximize their capabilities. Unless the Coast Guard takes steps to
address these training deficiencies as it deploys additional assets, the problems
with untrained C4ISR users and unused capabilities may only worsen.

The Coast Guard recognizes that it has a long way to go to provide adequate
training. For example, crewmember training on using C4ISR equipment and
LIMS was one of the critical issues that COMOPTEVFOR addressed in its
review of 123-foot patrol boat operations. In its April 2005 report,

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 27
COMOPTEVFOR stated that systems training was inadequate; there were
many areas where crewmembers received no training at all. Also,
COMOPTEVFOR found a lack of formal on-board training programs, lesson
plans, training handouts, and standards to certify personnel on use of the
equipment. COMOPTEVFOR indicated that while “just-in-time” training
might prove adequate for current crews, the lack of pipeline training for
incoming crews and support personnel was a problem. Based on these
findings, COMOPTEVFOR identified 123-foot patrol boat training as a high-
risk area that, if not mitigated, could adversely affect the effectiveness and
safety of onboard operations.

The Deepwater program has recently issued a broad industry-wide
announcement seeking innovative training technology to better support
program operations. It has requested information on best practices, new
products and techniques, and distance learning initiatives and services that can
help reduce costs and enhance the Deepwater training approach. In addition,
the program is constructing a facility in Petaluma, California that will offer
training on C4ISR equipment. This training facility, due to be completed in
2006, is expected to provide C4ISR training for crewmembers of the soon-to
be deployed National Security Cutter.

Inadequate IT Support

Office of Management and Budget Circular A-130 requires that agencies
provide mechanisms to support IT equipment and keep it operational after
implementation. The Deepwater prime contractor’s approach to upkeep of the
new and upgraded C4ISR equipment has been ineffective. In addition to
providing technical and engineering services during system testing,
integration, and installation, the contractor is responsible for correcting
hardware and software deficiencies, systems documentation, and continuously
updating the configuration baseline. To this end, the contractor has instituted
an Integrated Logistics System, which constitutes its management approach to
supporting, maintaining, and ensuring a supply chain for surface and shore
assets. An Integrated Logistics Support team helps ensure that all Deepwater
assets have adequate parts, training, manuals, and maintenance procedures in
place to support the Coast Guard mission.

The Integrated Logistics Support team uses LIMS (a web-based tool) to track
requests and exchange information regarding system repairs and replacement
parts. C4ISR users can call a toll-free number or log directly into LIMS to
make their requests for technical support, though it sometimes can take 3-4
days to receive a response. Via LIMS, users can obtain information about
assets that might be able to provide the spare parts they need, too. For
example, if the executive officer on one cutter needs a part that is not in stock,

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 28 

this official might access LIMS to see if another vessel has that part available.
Currently, only crewmembers on the 123-foot patrol boats can access LIMS,
although there are plans to extend access to other units across the Coast
Guard.

The contractor’s Integrated Logistics Support approach, although helpful, has
not been adequate. A number of officials told us that the Deepwater
contractor does not provide a level of assistance comparable to the high-level
service they are accustomed to receiving from Coast Guard IT support
personnel. Generally, officials said that they need better service, on site
technical support, and quicker repairs and parts replacement. They said that,
prior to Deepwater, cutters received support from Electronic Support Units
and other Coast Guard teams, which were located on Coast Guard installations
and therefore were more responsive. The Deepwater contract, however,
prevents these Coast Guard units from servicing C4ISR upgrades on surface
and shore assets. Officials in the Electronic Support Units also lack
knowledge and training on how much of the installed C4ISR equipment
operates. Coast Guard personnel must rely on the Deepwater approach, which
generally has been slower and less efficient than the Electronic Support Units
in providing C4ISR service.

Specifically, the Deepwater program’s “just-in-time” approach of generally
waiting to accumulate multiple requests from a given location before
providing C4ISR support or replacement parts has not been effective. The
delays until contractor support arrives on site can impede operational
efficiency and mission accomplishment. For example, on one patrol boat, the
Coast Guard command and control system has not been operational in over a
year because the contractor has not come out to repair it. Further,
crewmembers on a different patrol boat told us that their C4ISR equipment
kept shutting down unexpectedly, requiring that they restart the entire system
every 10-15 minutes to keep it up and running until contractor representatives
could arrive to fix the problem. This was especially difficult at night when,
for stealth reasons, the cutter conducted maritime security patrols without
lights. Crewmembers often found themselves in the precarious position of
losing their night vision when returning to the darkened bridge from the
brightly lit rooms below deck where the C4ISR equipment was located.

Further, contractor difficulty in locating spare parts adds to delays in
providing C4ISR service. This is especially problematic for certain types of
assets. Although replacement parts for the new national security cutter are
generally available, spares for the legacy 123-foot patrol boats are logistically
harder to obtain. Parts are required not only for the 123-foot patrol boat, but
also for the short range prosecutors that they transport and use to intercept and


  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 29 

board suspect vessels. Figure 6 provides a picture of a short range prosecutor.
(See Figure 6.)

According to one captain, cutters spend an extensive amount of time in repair
status. For example, although 123-foot patrol boats are supposed to be in
operational status at least 2,500 hours each year, the boats generally spend
about half the year undergoing repairs and therefore are unable to meet this
expectation. Also, it is time-consuming for crews to remove parts from assets
and mail them to the contractor facility for repair. Crewmembers stated that it
might take several months to get the equipment back from the contractor.
Without the full complement of C4ISR equipment while repairs are ongoing,
crews find it difficult to operate the system as a whole. Officials at one
operations center responsible for coordinating asset deployment often receive
complaints about contractor delays in providing C4ISR support and repairs,
but are powerless to help.




Figure 6: USCG Short Range Prosecutor

A lack of contractor personnel on site to provide Deepwater C4ISR support
compounds this situation. Due to limited funding, there is generally only one
contractor representative available on site at District 7 to respond to problems.
This representative is not sufficient to service all the assets in the Miami,
Florida; Key West, Florida; and Savannah, Georgia area. This individual
functions more as a liaison than a technician with specialized C4ISR training.
Overworked, this individual may take a week, or one to two months, to
respond to a LIMS repair request. Crewmembers on one cutter have never
received a maintenance visit by merely submitting a work order through
LIMS. At one point, the crewmembers had to reboot their C4ISR systems
every half hour while at sea to sustain communications. Although Deepwater
contractors were well aware of the problem, they still had no technicians
available to resolve it once the cutter returned to port. In commenting on a
draft of this report, the Coast Guard informed us it has made additional
support technicians available to respond to crewmember requests. Some
crewmembers have suggested that cutter support teams, staffed with shore-
side relief personnel, also would be helpful so that C4ISR technicians over-

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 30 

taxed from keeping the systems operational can take leave once they return
from sea.

As a result, instead of working through the established logistics support
process, Coast Guard personnel sometimes informally contact officials at the
Maritime Domain Awareness Center or District 7 for assistance even though
these officials are not responsible for providing Deepwater support. Such ad
hoc methods of obtaining C4ISR support have led to confusion as to who is
responsible. The Deepwater program recently outlined plans to assign a
C4ISR technician to each Deepwater vessel. The strategy is to exchange an
engineer billet on each ship for an IT specialist billet. The IT specialist billet
is to serve as a liaison between the cutter and the Deepwater contractor to help
ensure timely maintenance and support. A drawback to this strategy is the
fact that the crew will lose an engine maintenance technician—a critically
needed skill to sustain operations of the aging Coast Guard fleet.

Additionally, the LIMS system used to coordinate and track maintenance
requests has been difficult to use. First, as previously discussed, requests for
assistance submitted through the system are not addressed in a timely manner.
Users must follow-up repeatedly to determine the status of their maintenance
or parts requests. Second, users said that although the system has much
potential, the database is much bigger than what the Coast Guard will ever
need, making it unwieldy to use to locate needed equipment. For example,
one crewmember stated that it takes him an average of 90 minutes to locate a
replacement part in LIMS. Third, LIMS is housed on the communications
server so that if the server goes down—which it sometimes does due to
overload—the system becomes inaccessible. When this happens, assets at sea
become limited in their ability to report maintenance calls. This can affect
mission readiness if critical equipment fails: at one point the navigation
system on a cutter shut down, requiring that crewmembers manually chart
their course in order to dock safely.

Last, often replacement parts are not entered into the LIMS database in a
timely manner so that users can readily locate the supplies they need. For
example, one crewmember needed a laptop battery but neither the laptop nor
the battery was listed in the system. It took the contractor over a month to
locate a battery and send it to the crewmember. Crewmembers on this same
cutter requested a printer and waited two months for a response in LIMS.
During the delay, their options were to buy a new printer with the ship’s
funds, borrow one from a nearby cutter, or do without. The crew ultimately
borrowed a printer from another cutter. Users said that the ability to deal with
LIMS deficiencies is the result of tremendous effort by the Deepwater on site
representative and other Coast Guard district maintenance organizations. The


  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 31 

             COMOPTEVFOR recommended addressing the LIMS deficiencies before
             system access is provided to other Coast Guard locations.

             Because LIMS has not ensured timely IT support, the Coast Guard continues
             to rely on the long-standing practice of issuing casualty reports to
             communicate and coordinate C4ISR maintenance requests. Casualty reports
             are requests issued Coast Guard-wide to call attention to the need for mission-
             essential repairs or maintenance. There are three levels of casualty reports,
             corresponding to the criticality of the needed repair: while category 2 casualty
             reports might be used for minor repairs, category 4 casualty reports are used to
             secure parts or support fundamental to executing maritime missions (such as,
             a cutter cannot sail until a technical problem is fixed). To ensure that C4ISR
             repairs and support are paid for using Deepwater program funds and not
             general agency operating funds, C4ISR users are not supposed to issue
             casualty reports. However, when LIMS fails them, C4ISR users often resort
             to the reports as a means of elevating and ensuring faster response to their
             maintenance requests.

             Recommendations

             We recommend that the Commandant, U.S. Coast Guard, direct the
             Deepwater Program Executive Officer to:

             5. 	 Assess Deepwater staffing needs and apply adequate program
                  management resources to effectively oversee and support program
                  activities.
             6. 	 Review the Deepwater contract and supporting documents and agreements
                  and make modifications as appropriate to ensure that contractor
                  responsibilities are clearly defined, communicated, and accepted.
             7. 	 Establish C4ISR spending priorities to help ensure that “system-of-
                  systems” objectives are achieved in line with budget realities.
             8. 	 Review and revise the Deepwater training approach to ensure that
                  sufficient training, adequate instructors, and reference materials are
                  available to support C4ISR systems users.
             9. 	 Ensure that the contractor provides adequate and timely support for C4ISR
                  systems and their users.


Management Comments and OIG Evaluation

             We obtained written comments on a draft of this report from the Chief of
             Staff, U.S. Coast Guard. We have included a copy of the comments in their
             entirety at Appendix B.


               Improvements Needed in the U.S. Coast Guard’s Acquisition and 

                Implementation of Deepwater Information Technology Systems


                                          Page 32 

In the comments, the Coast Guard generally concurred with all of the findings
and recommendations in our report and expressed appreciation for our efforts
to document areas for improvement regarding Deepwater’s IT systems. The
Coast Guard said that it is in the process of implementing corrective actions in
line with the high-level report recommendations, but emphasized that funding
will be key to accomplishing improvement objectives. Specifically, the Chief
of Staff said that funding constraints have delayed the Coast Guard’s ability to
accomplish certain Deepwater IT objectives as scheduled, requiring the
agency to re-plan programmed work and that this may continue to pose
challenges for the future. The Chief of Staff went on to provide clarification
regarding the findings and corresponding recommendations in our report and
summarize progress the Coast Guard has made to address them. While we
recognize the efforts that the Coast Guard has ongoing, we look forward to
receiving periodic updates on implementation progress as well as additional
improvement initiatives.

Specifically, the Coast Guard concurred with Recommendation 1 concerning
the need for increased agency input and oversight of the requirements
definition process to ensure that contractor activities meet program goals and
objectives. The Chief of Staff said that our report accurately discusses the
partnership between the Coast Guard and the prime contractor, ICGS, under
the terms of the performance-based contract. That is, the contractor is
responsible for defining and implementing a plan to achieve overall systems
integration objectives, but the Coast Guard decides whether these
requirements are being met within available funding. However, the Chief of
Staff attributed the OIG’s perception of limited Coast Guard influence over
contractor effectiveness in meeting requirements to its examination of C4ISR
development activities during an early phase of the program. The Chief of
Staff inferred that since then, the Coast Guard has put processes in place to
oversee contractor activities and reduce the need for changes as the contract
progresses. Further, since 2005, the Coast Guard has taken additional steps to
improve the requirements definition process and has increased stakeholder
representation on the integrated product teams involved in technical reviews
hosted by the contractor. We acknowledge the efforts made to improve the
requirements definition process during the course of our review and encourage
continued enhancements to ensure that the contractor fulfills Coast Guard
expectations.

Similarly, the Coast Guard concurred with Recommendation 2 concerning
defining and communicating system requirements change management
processes. The Chief of Staff stated that the Deepwater Program Office and
the prime contractor have implemented engineering and broader change-
management processes approved by the Joint Integrated Deepwater System
Configuration Control Board. The configuration control board has begun

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 33 

taking steps to help ensure coordination and oversight of program changes and
avoid changes that may previously have gone unreported. In addition, this
official said that the requirements management plan is being revised and is
due for completion in FY 2006. We are encouraged by such advancements in
the requirements change management process and look forward to reviewing
the requirements management plan once it is completed.

The Coast Guard concurred with Recommendation 3 regarding steps needed
to ensure that the contractor mitigates Deepwater IT security vulnerabilities.
The Chief of Staff said that the Deepwater Program Office is working closely
with the Coast Guard’s Command, Control, Communications, Computers, and
Information Technology Directorate to ensure that proper steps are taken in
this regard. For example, this official noted that the Coast Guard has
addressed security vulnerabilities and received authority to operate the C4ISR
systems used on its 123-foot patrol boats. However, the Coast Guard did not
address our concerns about continued delays in completing and installing a
new Coast Guard command and control system at the District 7 Miami shore
site. We would appreciate clarification on the status of this effort as it will
affect not only other shore sites that are scheduled to receive the command
and control system, but also the National Security Cutter which is due to be
completed in 2007.

Although the Coast Guard concurred with Recommendation 4 regarding the
shortcomings of the simulation equipment, the Chief of Staff said that
independent verification, validation, and accreditation of the simulator is not
included in the scope of the contract and is not being pursued at this time.
The Chief of Staff contended that the simulator’s level of accuracy is
sufficient to verify interfaces within the C4ISR system, even though some
elements of the Coast Guard have expressed a desire for independent
verification, validation, and accreditation of the simulator to help ensure that
the actual systems will function properly when deployed to the assets.
Further, the Coast Guard did not address part of our recommendation about
providing the Navy’s Commander, Operational Test and Evaluation Force
with the access needed for independent test and evaluation of C4ISR systems
and equipment. In line with our report recommendation, we strongly
encourage the Coast Guard to plan and complete the verification, validation,
and accreditation of the simulator to ensure that the testing environment
matches potential real-life situations. In addition, we request that the Coast
Guard provide details on its plans for supporting independent C4ISR test and
evaluation to ensure that the system will operate efficiently and securely after
implementation.

The Coast Guard concurred with Recommendation 5 concerning Deepwater
staffing and program management resource needs. In the response, the Chief

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 34 

of Staff discussed the Commandant’s commitment to evaluating and
improving the Coast Guard acquisition structure, process, and workforce, but
cautioned that finding qualified individuals to fill the vacancies has been a
barrier to providing the program oversight and efficiencies needed. This
official stated that the Commandant has chartered a panel of experts to
formulate recommendations on how to improve Coast Guard acquisitions,
with a particular focus on bolstering in-house subject matter expertise. We
recognize the difficulties the Coast Guard has had in obtaining qualified
personnel, and appreciate continued efforts to overcome this challenge.
Ensuring adequate Deepwater program oversight will be key to ensuring that
the Coast Guard’s mission objectives are successfully met.

The Coast Guard concurred with Recommendation 6 and described efforts to
address and review the Deepwater contract and its supporting documents,
agreements, and modifications to ensure that contractor responsibilities are
clearly defined, communicated, and accepted. Specifically, the Chief of Staff
stated that when contracting officers are asked to interpret the contract, there
has been no confusion about contractor responsibilities in producing C4ISR
systems. Further, this official stated that the contracting officers, contracting
officer technical representatives, and program managers are aligned and ICGS
is given clear guidance on the contractual requirements. Nonetheless, the
Chief of Staff stated that for the next contract award term, government and
contractor responsibilities are being further refined and negotiated. In the
meantime, activities and processes that can be accomplished within the terms
of the existing contract will continue. We are encouraged by the Coast
Guard’s plan to address ambiguities in the contract for the next award term
and look forward to seeing how the government and contractor responsibilities
will be clarified and communicated.

The Coast Guard concurred with Recommendation 7 regarding establishing
C4ISR spending priorities to achieve “system of systems” objectives. The
Chief of Staff said that the Coast Guard currently establishes C4ISR spending
priorities each year, but conceded that enacted funding levels have caused
certain objectives to be deferred until funding becomes available. Addressing
priorities within the funding provided may be a challenge, but will be key to
ensuring that assets are equipped with the C4ISR systems they need to operate
effectively.

The Coast Guard concurred with Recommendation 8 concerning C4ISR user
training and stated that the Coast Guard and contractor have under taken a
number of actions to address the various training and logistics system issues
described in our report. Such actions include ensuring pipeline training for
the National Security Cutter C4ISR suite, as well as providing computer based
LIMS training.

  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 35
However, the Coast Guard’s response did not address the need to improve
training for the 123-foot patrol boat and shore site C4ISR operators.
Specifically, the Chief of Staff responded that most of these issues identified
in our report have already been brought to Coast Guard management’s
attention and have already been incorporated into subsequent training plans.
The Chief of Staff stated also that timely and consistent use of the C4ISR
systems has improved the contract instructors’ knowledge of the systems and
that ICGS is meeting funded contractual requirements. We look forward to
learning more about the improved training plans and approaches to ensure that
C4ISR operators that will use the system at shore facilities and on other
Deepwater assets will receive the instruction they need to function effectively.

Lastly, the Coast Guard concurred with Recommendation 9 regarding
adequate and timely support for C4ISR systems and their users. Specifically,
the Chief of Staff stated that while the contractor is meeting current
requirements, the Coast Guard and contractor are evaluating how to provide
more effective user support within funding limitations. We look forward to
learning more about the plans developed for improvements in this area.




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 36 

Appendix A
Scope and Methodology




To establish criteria for this review, we researched U.S. laws, regulations, and
other federal guidance applicable to the Coast Guard. Documentation, such as
media articles and press releases obtained through Internet searches, provided
background information about the Deepwater program. Additionally, we
reviewed earlier reports and congressional testimony by the Government
Accountability Office and industry organizations to learn more about their
findings and recommendations related to Deepwater.

To accomplish our review objectives, we met with representatives at Coast
Guard headquarters in the Washington, DC area to learn about their roles,
responsibilities, and activities related to the Deepwater program. Senior Coast
Guard officials provided initial briefings on the program, and more
specifically on its C4ISR components. The C4ISR program manager and
deputy program manager discussed with us the system requirements definition
process as well as their incremental approach to implementing IT and plans to
upgrade assets to meet these requirements. These officials, along with other
staff at the Systems Integration Program office, told us about testing of newly
developed systems, plans for ensuring interoperability of the systems, and user
training. They discussed program budgeting, funding, and personnel
management. Additionally, these officials provided information on
Deepwater contract requirements, performance measurement, and logistics
management.

Personnel at Coast Guard headquarters assisted us in identifying other
locations where we might visit to learn about new C4ISR components.
During the course of our review, we visited the Maritime Domain Awareness
Center, a state-of-the art contractor facility in Moorestown, NJ. This center is
responsible for developing, testing, and integrating systems and assets related
to Deepwater as well as other homeland security programs. In addition to
leading us on a tour of the facility, center officials provided several briefings
on the Deepwater program structure and plans for providing improved
command and control. Center officials discussed Deepwater requirements
definition, change management processes, and integrated product and process
development. They offered their perspectives on Deepwater program
management, communications, and training. Also, they outlined plans for
C4ISR system testing, certification, and accreditation. A contractor at the
Space and Naval Warfare Systems Command in Charleston, SC discussed
system testing and evaluation activities, too.

We visited several Coast Guard vessels and shore sites to understand and
observe C4ISR upgrades implemented through the Deepwater program.



  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 37

Appendix A
Scope and Methodology



Specifically, we toured the following United States Coast Guard Cutters
(USCGCs) at locations in Portsmouth, VA, and Key West, FL:

•     USCGC NORTHLAND
•     USCGC RESOLUTE
•     USCGC MATAGORDA
•     USCGC NUNIVAK
•     USCGC MANITOU
•     USCGC METOMPKIN

We visited the Communications Area Master Station Atlantic in Chesapeake,
VA (responsible for supporting communications among all Coast Guard assets
on the eastern seaboard of the United States) and the Communications Center
in Miami, Florida (responsible for supporting Coast Guard District 7
operations). At the various ship and shore locations, we inspected C4ISR
upgrades and talked to users about their experiences with the new equipment
as well as the training and support they had received. At the District 7
Communications Center, a contractor provided a demonstration of the new
command and control system under development. Coast Guard officials,
contractors, and users at District 7 told us about their input into C4ISR
requirements, system design and security, testing and evaluation of the C4ISR
domain, and implementation of the C4ISR components.

Last, we visited two of the Coast Guard’s three centers of excellence in
communications and IT: The Telecommunications and Information Systems
Command in Alexandria, Virginia and the Command and Control Engineering
Center in Portsmouth, Virginia. Although not officially part of the
Deepwater program, these centers of excellence receive funding to support
program activities and help ensure that the systems under development will
interface with existing Coast Guard systems.

We limited our audit to C4ISR requirements definition and implementation of
systems upgrades. We did not observe systems testing or address classified
aspects of the Deepwater program.

We conducted our audit from December 2005 through April 2006. We
performed our work according to generally accepted government audit
standards. The principal OIG points of contact for this audit are Frank Deffer,
Assistant Inspector General, Information Technology Audits and Sondra
McCauley, Director, Information Management Division. Other major
contributors are listed at Appendix C.



    Improvements Needed in the U.S. Coast Guard’s Acquisition and 

     Implementation of Deepwater Information Technology Systems


                               Page 38 

Appendix B
Management Response to Draft Report




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 39 

Appendix B
Management Response to Draft Report




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 40 

Appendix B
Management Response to Draft Report




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 41 

Appendix B
Management Response to Draft Report




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 42 

Appendix B
Management Response to Draft Report




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 43 

Appendix C
Major Contributors to this Report




Information Management Division

Sondra McCauley, Director
John Shiffer, Audit Manager
Meghan Sanborn, Auditor
Shannon Frenyea, Auditor
Lane Melton, Technical Support
Chiu-Tong Tsang, Referencer




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 44
Appendix D
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
Executive Secretariat
General Counsel
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
DHS Legislative and Intergovernmental Affairs
DHS GAO OIG Audit Liaison

United States Coast Guard

Chief of Staff
Deepwater Program Executive Officer
Deepwater C4ISR Program Manager
Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




  Improvements Needed in the U.S. Coast Guard’s Acquisition and 

   Implementation of Deepwater Information Technology Systems


                             Page 45 

                Appendix D
                Report Distribution




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations–
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.




            Improvements Needed in the U.S. Coast Guard’s Acquisition and
             Implementation of Deepwater Information Technology Systems

                                      Page 46
